U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


                     BUREAU OF EXPORT
                       ADMINISTRATION
    Annual Follow-Up Report on Previous
     Export Control Recommendations, as
        Mandated by the National Defense
    Authorization Act for Fiscal Year 2000
     Final Inspection Report No. IPE-14246-1/March 2001




            Office of Inspections and Program Evaluations
March 30, 2001


MEMORANDUM FOR:                 William A. Reinsch
                                Under Secretary for Export Administration


FROM:                           Johnnie E. Frazier

SUBJECT:                        Annual Follow-Up Report on Previous Export Control
                                Recommendations, as Mandated by the National Defense
                                Authorization Act for Fiscal Year 2000 (IPE-14246-1)

This is our report on the status of recommendations from our March 2000 report, Improvements Are
Needed in Programs Designed to Protect Against the Transfer of Sensitive Technologies to
Countries of Concern (IPE-12454-1). This follow-up report is required by the National Defense
Authorization Act for Fiscal Year 2000, as amended. The act requires us to report to the Congress
annually on the status of recommendations made in earlier reports submitted in accordance with the act.

We are pleased to report that the Bureau of Export Administration is either in the process of taking
corrective actions to implement our recommendations or has completed corrective actions necessary to
meet the intent of our recommendations. However, we believe that some of the agency’s planned
actions may not fully address certain recommendations, particularly in the deemed export control area
(recommendations 3(c), 4, and 5). As such, we request that BXA officials provide an updated
response within 60 calendar days for those recommendations that we still consider as open.

In addition, the status of our March 2000 recommendations is also included as an appendix to the
interagency OIG report, Interagency Review of the Commerce Control List and the U.S.
Munitions List (Report No. D-2001-092), March 2001. If you would like to discuss this
follow-up report’s contents, please call me at (202) 482-4661 or Jill Gross, Assistant Inspector
General for Inspections and Program Evaluations, at (202) 482-2754.

INTRODUCTION

The House and Senate Armed Services Committees, through the National Defense Authorization Act
for Fiscal Year 2000, as amended, directed the Inspectors General of the Departments of Commerce,
Defense, Energy, State, and the Treasury, and the Central Intelligence Agency, in consultation with the
Federal Bureau of Investigation, to conduct an annual assessment of the adequacy of current export
controls and counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                                                                   March 2001

technical information by countries and entities of concern.1 In addition, the legislation requires the
Offices of Inspectors General (OIGs) to include in their annual report the status or disposition of
recommendations made in earlier reports submitted in accordance with the act. Finally, the legislation
mandates that the OIGs report to the Congress no later than March 30 of each year from 2000 to
2007. This report presents the status of recommendations made in our March 2000 report.

Inspections are special reviews that the OIG undertakes to provide agency managers with information
about operational issues. One of the main goals of an inspection is to eliminate waste in federal
government programs by encouraging effective and efficient operations. By asking questions,
identifying problems, and suggesting solutions, the OIG hopes to help managers move quickly to
address problems identified during the inspection. Inspections may also highlight effective programs or
operations, particularly if they may be useful or adaptable for agency managers or program operations
elsewhere.

This inspection was conducted in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency, and was performed under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated May
22, 1980, as amended.

OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objective of our review was to follow up on actions taken by BXA, and other applicable
Commerce bureaus, to implement the recommendations contained in our March 2000 report. To meet
our objective, we spoke with various BXA officials, including senior managers, licensing officials, and
enforcement agents, as well as officials of the other bureaus, including the National Institute of
Standards and Technology and the National Oceanic and Atmospheric Administration. We also
reviewed supporting documentation to verify that the actions reportedly taken by BXA and the other
bureaus were sufficient to implement our recommendations.

BACKGROUND

The United States controls the export of dual-use commodities for national security, foreign policy, and
nonproliferation reasons under the authority of several different laws. The primary legislative authority
for controlling the export of dual-use commodities is the Export Administration Act of 1979, as
amended. Under the act, BXA administers the Export Administration Regulations (EAR) by
developing export control policies, issuing export licenses, and enforcing the laws and regulations for
dual-use exports.

        1
         Public Law 106-65, October 5, 1999.

                                                    2
U.S. Department of Commerce                                                              Final Report IPE-14246-1
Office of Inspector General                                                                            March 2001

To comply with the first year requirement of the National Defense Authorization Act for Fiscal Year
2000, the OIGs agreed to conduct an interagency review of (1) federal agencies’ (including research
facilities’) compliance with the “deemed export”2 regulations and (2) U.S. government efforts to help
prevent the illicit transfer of U.S. technology and technical information through select intelligence,
counterintelligence, foreign investment reporting, and enforcement activities.3 The objectives of our
March 2000 report were to (1) examine the deemed export regulations, including their implementation
and enforcement by BXA, as well as compliance with the regulations by industry and other federal
agencies; (2) determine the effectiveness of BXA’s Visa Application Review Program in preventing the
illicit transfer of U.S. technology to countries and entities of concern; and (3) survey selected aspects of
the efforts of the Committee on Foreign Investment in the United States (CFIUS). Our review
identified a number of problems that hampered both BXA’s and the U.S. government’s efforts to more
effectively prevent the transfer of sensitive U.S. technology to countries and entities of concern. While
BXA generally agreed with our review findings, it cited budget shortfalls that would inhibit its ability to
take some of the recommended actions. Our specific observations and conclusions from that review
are as follows:

Deemed Exports

The U.S. government controls not only the export of products, but also of technical data. Technology
or software can be released for export through:4

C        visual inspection by foreign nationals of U.S.-origin equipment and facilities;

C        oral exchanges of information in the United States or abroad; or

C        the application to situations abroad of personal knowledge or technical experience acquired in
         the United States.



         2
           According to the EAR, any release to a foreign national of technology or software subject to the
regulations is deemed to be an export to the home country of the foreign national. These exports are commonly
referred to as “deemed exports,” and may involve the transfer of sensitive technology to foreign visitors or workers
at U.S. research laboratories and private companies.

         3
          Because the National Defense Authorization Act was not enacted until October 1999, we were not able to
conduct a comprehensive assessment of BXA’s export enforcement activities by the March 30, 2000, deadline.
However, as a part of the interagency multi-year plan, we anticipate conducting this assessment in fiscal year 2002.

         4
            Per 15 C.F.R. 734.2(b)(2)(ii), this deemed export rule does not apply to persons lawfully admitted for
permanent residence in the United States or to persons who are protected individuals (e.g., a person admitted as a
political refugee) under the Immigration and Naturalization Act (8 U.S.C. 1324b(a)(3)).

                                                          3
U.S. Department of Commerce                                                        Final Report IPE-14246-1
Office of Inspector General                                                                      March 2001

Items not subject to the EAR include publicly available technology and software that (1) are already
published or will be published, (2) arise during or result from fundamental research,
(3) are educational, or (4) are included in certain patent applications. In addition, based on encryption
export control regulations issued in January 2000, foreign employees of U.S. companies working in the
United States no longer need an export license to work on encryption.

It should be noted that it is the responsibility of the U.S. entity that is employing or sponsoring the
foreign national to submit a deemed export license application to BXA for review. Of the 12,650
export license applications BXA received during fiscal year 1999, approximately 783 (6 percent) were
for deemed exports.

As part of our March 2000 export control report, we concluded (as we did in our June 1999 export
licensing report)5 that not only were the deemed export control policy and regulations ill-defined and
poorly understood by many, but the implementation of the regulations and compliance with them by
federal and private research facilities and companies appeared lax. As we previously have highlighted,
the lack of understanding by industry and federal agencies regarding the applicability and requirements
of deemed export control regulations could result in a loss of sensitive technology to inappropriate end
users. While BXA did not disagree with our observations that the regulations for deemed exports are
ambiguous or that U.S. companies and other federal agencies may not be compliant with the
regulations, it had taken little action to correct these problems since issuance of our June 1999 report.
As a result, our March 2000 reported that these same problems still existed with regard to deemed
exports.

Our report also emphasized that some of the noncompliance with the deemed export rule stemmed
from the ambiguity in the policy and the regulations. For example, the term “fundamental research”
needs to be better defined so that U.S. entities are not given the excuse, or the opportunity, to broadly
interpret the meaning in order to avoid compliance with the regulations. In addition, we reported that
some of the exemptions under the regulations could potentially affect national security and, therefore,
needed to be further examined by policymakers.

Moreover, we reported that BXA needed to be more proactive in “getting the word out” to high
technology companies and industry associations it believed to be more likely to need deemed export
licenses. Finally, our report raised concerns as to whether some federal agencies and research facilities,
including the Departments of Commerce, Defense, and Transportation, were in full compliance with the
deemed export regulations. For instance, based on a limited sample of 16 foreign nationals working on
projects at NIST, BXA licensing officials made a preliminary determination that 3 of them may have

        5
        Improvements Are Needed to Meet the Export Licensing Requirements of the 21st Century, U.S.
Department of Commerce Office of Inspector General, IPE-11488, June 1999.

                                                      4
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                                                                   March 2001

required deemed export licenses. In addition, we found that only two federal agencies, the Department
of Energy and the National Aeronautics and Space Administration, submitted a total of five deemed
export license applications during fiscal year 1999. Given the recognized number of foreign visitors and
workers at these agencies’ research facilities that might have access to export-controlled technology or
software there, we thought this number may have been low.

Visa Application Review Program

BXA created the Visa Application Review Program to help prevent unauthorized access to controlled
technology or technical data by foreign nationals visiting the United States. In 1998, BXA restructured
this program to better target those incoming visa applications for individuals who may be involved with
products and technologies most often needed for weapons of mass destruction. Based on our review
of a sample of 74 visa application referrals, we reported that the program had shown potential for
helping achieve the agency’s export enforcement mission. For example, some referrals to the Office of
Export Enforcement (OEE) resulted in investigations aimed at the prevention of the illegal export of
dual-use technologies, and one referral to the State Department resulted in a visa being denied.
However, our report also indicated that the program’s efficiency and effectiveness could be further
improved. For example, the process for reviewing the visa applications would be enhanced by having
more complete reference materials and checklists for BXA’s analysts to use. In addition, while the
process for referring problematic visa applications to OEE for investigation was working, we believed it
would have been more efficient if certain changes were made to the enforcement database and the way
in which referrals were routed to the BXA field offices. We also suggested a few changes to improve
operations, including the timely referrals of potential visa fraud cases to the State Department so that
appropriate action could be taken.

Given the relatively recent restructuring of the Visa Application Review Program at the time of our
review, we determined that a full and fair assessment of the program’s performance was not yet
possible. Nonetheless, we recommended that BXA develop performance measures to monitor the
program’s progression and results.

Finally, BXA’s Visa Application Review Program is a part of the larger U.S. government review of visa
applications under the State Department’s Visas Mantis program. The latter program focuses on
preventing foreign nationals from countries or entities of concern from gaining access to U.S. high
technology. The program’s defining feature is that it allows various federal government agencies to
review a visa application before a visa is issued by State. However, based on discussions with the
other OIGs involved in our March 2000 review, as well as some of the agencies themselves, we
reported that some of the agencies that received the Visas Mantis cables had curtailed their review of
the cables because of resource shortages and limited results on their referrals to State. In addition, the
agencies acknowledged that there was little coordination with regard to what each agency was doing

                                                    5
U.S. Department of Commerce                                                              Final Report IPE-14246-1
Office of Inspector General                                                                            March 2001

under the program, leading to some confusion about their responsibilities related to the review of these
visa applications. Furthermore, we reported that State officials claimed to be limited in their ability to
deny visas under the Visas Mantis program because the section of the Immigration and Nationality Act
dealing with technology concerns was vague about the circumstances under which a visa may be
denied. Also, we found that State was not providing feedback to the agencies involved in the program
as to what actions were being taken on their referrals. Therefore, we recommended that BXA work
with the other involved agencies to formalize the Visas Mantis review program in a memorandum of
understanding, as well as to establish criteria for denials, and develop a process for feedback from the
State Department so that the agencies are kept apprised of the impact of their comments on visa
referrals.

Foreign Investment in the United States

To prevent the loss of domestic defense production capability, and to further counter the loss of highly
advanced technology and processes that are important to national security, the Congress passed the
Exon-Florio provision in the Omnibus Trade and Competitiveness Act of 1988. This provision focused
on such losses through foreign acquisitions of or investments in U.S. companies. Exon-Florio
authorizes the President to suspend or prohibit any foreign acquisition, merger, or takeover of a U.S.
company that is determined to threaten national security.6 It was not intended to provide a
comprehensive screening mechanism for all foreign investments. In fact, one of the major assumptions
behind the legislation was that the U.S. government already had at its disposal a number of other tools
to protect national security, such as export control laws.

The President, pursuant to Executive Order 12661, Implementing the Omnibus Trade and
Competitiveness Act of 1988 and Related International Trade Matters, dated December 27, 1988,
delegated his responsibilities under the Exon-Florio provision to CFIUS.7 CFIUS is an interagency
group composed of representatives from 11 agencies and government entities, including senior officials
from the Departments of the Treasury (which chairs the Committee), Commerce, Defense, Justice, and
State, and the Office of Management and Budget, as well as the U.S. Trade Representative, the
Director of the Office of Science and Technology Policy, the Chairman of the Council of Economic
Advisers, the Assistant to the President for Economic Policy, and the Assistant to the President for
National Security Affairs.


         6
          The Exon-Florio provision does not provide a precise definition of national security. Rather it gives the
U.S. government the ability to redefine that term to address threats to national security as they arise and to keep
pace with technological and political developments.

         7
         CFIUS was originally established by Executive Order 11858, Foreign Investment in the United States,
dated May 7, 1975, to mainly monitor and evaluate the impact of foreign investment in the United States.

                                                          6
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                                                                   March 2001

Based on limited survey work, our March 2000 report raised concerns about the effectiveness of
CFIUS’s monitoring of foreign investments for national security reasons, including the (1) lack of
mandatory foreign investment reporting, (2) low number of investigations conducted on company filings,
and (3) potential conflict of interest or appearance thereof by the Treasury office charged with
overseeing CFIUS with its dual responsibilities to “promote” foreign investment as well as “prevent”
such investment when it could result in the loss of sensitive technology or a critical reduction in the
defense industrial base. Therefore, we suggested that the interagency OIG review team, including the
Departments of Commerce, Defense, and the Treasury, as a part of its responsibilities under the
National Defense Authorization Act for Fiscal Year 2000, undertake a study to (1) determine the
scope of the problem regarding foreign investment in U.S. companies with sensitive technologies by
countries and entities of concern and (2) review the overall effectiveness of CFIUS and recommend
improvements, as necessary, to the way the U.S. government monitors foreign investment in these
companies. The Inspectors General of the Departments of Defense and the Treasury concurred with
our suggestion.

Our report also highlighted some issues involving the Department of Commerce’s process for reviewing
CFIUS filings that warrant management’s review. For example, we questioned whether Commerce’s
lead responsibility for this program should remain in the International Trade Administration, the
Department’s primary trade promotion agency, or be moved to BXA, the Department’s primary
national security agency. When CFIUS was created, the Department’s export control functions were
performed by ITA. However, in 1987, the Congress decided to split the Department’s trade
promotion responsibilities from its export control and enforcement functions. Thus, BXA was created
as an independent Commerce bureau to handle the latter trade administration functions. While ITA’s
focus remained on trade promotion, it also retained its role as Commerce’s representative on CFIUS.
However, with the passage of the Exon-Florio provision in 1988, CFIUS’s main focus was shifted from
monitoring overall foreign investment in the United States to determining the effects on national security
of foreign mergers, acquisitions, and takeovers of U.S. companies. Thus, while senior officials in both
agencies informed us that the CFIUS review process in Commerce was working well, we maintained
that BXA may be the more appropriate and better equipped entity to represent Commerce on this
committee.

In addition, our report raised concerns about the fact that BXA’s export enforcement and export
licensing units did not routinely review CFIUS notifications. While BXA’s Office of Strategic Industries
and Economic Security appeared to be conducting a fairly comprehensive review of CFIUS
notifications it received from ITA, we believed that it would be prudent for all CFIUS filings, and in
particular those involving entities from countries of concern, to be reviewed by BXA’s export
enforcement and export licensing units.




                                                    7
U.S. Department of Commerce                                                           Final Report IPE-14246-1
Office of Inspector General                                                                         March 2001

MOST RECOMMENDATIONS FROM MARCH 2000 EXPORT CONTROLS REPORT
ARE BEING IMPLEMENTED

Our March 2000 export control report on programs designed to protect against the transfer of sensitive
technologies to countries of concern contained a number of recommendations to several Commerce
bureaus to help the government’s efforts in protecting against illicit technology transfer. Specifically, our
recommendations focused on three activities that Commerce, in particular BXA, carries out or
participates in to help prevent the illicit transfer of sensitive U.S. technology: (1) deemed export control
activities, (2) the Visa Application Review Program, and (3) efforts in support of CFIUS. We are
pleased to note that the actions planned or taken for 16 of our previous recommendations 8 meet the
intent of our recommendations. However, we believe that BXA’s actions for the remaining eight do not
adequately address our recommendations (see the attachment for a detailed description of the status of
our March 2000 recommendations). BXA will have to coordinate with officials of NOAA to resolve
one of these open recommendations. Given BXA’s central role in administering the dual-use export
control process, we believe that action should be taken to implement the open recommendations as
expeditiously as possible.

Attachment

cc:     Scott Gudes, Acting Under Secretary for Oceans and Atmosphere
        Timothy J. Hauser, Acting Under Secretary for International Trade
        Karen Brown, Acting Under Secretary for Technology




        8
          Some of the original recommendations are broken down into specific action items. Thus, the total number
of open and closed recommendations equals 24 not 20.

                                                        8
U.S. Department of Commerce                                                    Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                       March 2001



                              STATUS OF RECOMMENDATIONS

Recommendations for the Bureau of Export Administration

1.     Aggressively pursue an outreach program to high technology companies and industry
       associations explaining and seeking compliance with the deemed export control
       requirements.

       Status: Closed. Within BXA, the Office of Exporter Services has the lead responsibility for
       educating the business community and U.S. government agencies about the “deemed export”
       provisions of the Export Administration Regulations (EAR). BXA informed us that the Office
       of Exporter Services includes the subject of deemed exports in its two-day export control
       seminars, which are held monthly in different cities across the United States. Plenary sessions
       were also conducted on deemed exports at BXA’s annual Update Conference in July 2000
       (which BXA estimated included 800 industry representatives). In addition, BXA keeps
       industry informed of deemed exports through its various Technical Advisory Committee
       meetings. Furthermore, we note that BXA’s senior managers also periodically include
       information on deemed exports in speeches given at industry events.

       In addition to these outreach activities, the Office of Export Enforcement (OEE), through its
       Project Outreach program, meets with employees of businesses, officials of other federal
       agencies, and university officials to make them aware of their export control compliance
       responsibilities under the EAR. According to OEE officials, such guidance includes making
       these individuals aware of the deemed export provisions of the EAR.

       During fiscal year 2000, OEE reported that it conducted 1,033 Project Outreach visits and 60
       public relations appearances (such as trade association meetings or Business Executive’s
       Enforcement Training meetings). OEE officials informed us that because many of the dual-use
       technologies and commodities controlled under the EAR are high technology, a significant
       proportion of OEE’s contacts with the business community are with high technology firms. In
       addition, OEE special agents have visited numerous research institutes and universities that
       employ or sponsor foreign nationals. BXA’s actions meet the intent of our recommendation.

2.     Develop a link on BXA’s main Internet web site specifically dedicated to deemed
       exports as was done for the Chemical Weapons program.

       Status: Closed. On March 15, 2000, a deemed export web site link was established on the
       main BXA web site. The web site includes a comprehensive list of questions and answers

                                                   1
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                        March 2001


       covering what the deemed export rule is, who is considered a foreign national, what the
       licensing requirements for foreign nationals are, and what technologies are subject to control.
       BXA’s actions meet the intent of our recommendation.

3.     Expand outreach efforts with federal agencies (including the Departments of
       Commerce, Defense, Energy, and Transportation, and the National Aeronautics and
       Space Administration) to ensure that these agencies fully understand the deemed
       export requirements and to help them determine whether foreign visitors at their
       facilities and/or laboratories require a deemed export license. At a minimum, BXA
       should

       (e)     Respond to the Department of Energy’s November 1999 request to review and
               concur with the informal deemed export guidance that BXA provided to Energy
               officials at a June 1999 meeting.

               Status: Closed. Although BXA has still not formally responded to the Department of
               Energy’s November 1999 request to review and concur with the informal deemed
               export guidance that BXA provided to Energy officials at a June 1999 meeting, we
               acknowledge that BXA is now engaged in a continuing dialogue with Energy on various
               export control issues, including deemed export controls. BXA’s actions meet the intent
               of our recommendation.

       (b)     Follow up with the Director of NIST on the three cases we identified to
               determine whether deemed export licenses should have been obtained and
               assist NIST in developing an export compliance program.

               Status: Closed. According to BXA, licensing officials held consultations with NIST
               and determined that the three cases in question were instances of “fundamental
               research” and, as such, no deemed export license was required. BXA’s actions meet
               the intent of our recommendation (see page 11 for details on NIST’s efforts to develop
               an export compliance program).

       (c)     Engage in discussions with the NOAA Administrator, as well as the Assistant
               Administrators of its line offices and in particular NESDIS, to discuss deemed
               export regulations and their potential applicability to NOAA.

               Status: Open. According to BXA, in June 2000, BXA’s Deemed Export Program
               Director offered to conduct a briefing for appropriate NOAA officials regarding the
               deemed export license requirement, but no follow-up was sought by NOAA. As a
               follow-up measure, BXA stated that it will send a memo to NOAA extending the offer

                                                   2
U.S. Department of Commerce                                                      Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                         March 2001


               for a deemed export briefing when the new NOAA Administrator has been appointed.
               However, during fiscal year 2000, OEE visited NOAA’s facility in Boulder, Colorado,
               to meet with attorneys in its Office of Chief Counsel. According to OEE officials, the
               presentation was focused primarily on deemed exports. While BXA’s action partially
               meets the intent of our recommendation, we reaffirm our original recommendation for
               BXA to engage in discussions with senior NOAA officials across all of its line offices.

       (d)     Meet with Department of Transportation officials to ensure their understanding
               and compliance with deemed export license requirements.

               Status: Closed. According to BXA, representatives from Export Administration and
               the Office of Chief Counsel met with legal staff from the Department of
               Transportation’s Federal Aviation Administration in June 2000. BXA informed us that
               it provided an extensive briefing on the regulatory and procedural requirements of the
               deemed export program. In addition, BXA reported that it contacted officials at the
               Department of Transportation and provided them with copies of the regulation and web
               site material. BXA’s actions meet the intent of our recommendation.

       Despite its lack of action on some of our recommendations, BXA appears to have made a
       concerted effort since the issuance of our March 2000 report to ensure that other federal
       agencies have a clear and uniform understanding of the licensing requirements for the transfer of
       controlled technology to foreign nationals. For example, BXA reported that OEE conducted
       350 liaison meetings with other federal agencies during fiscal year 2000. BXA also informed us
       that it includes its sister agencies as both guests and instructors in its seminar programs in an
       effort to educate agency officials on BXA’s responsibilities in the export control arena, including
       deemed exports. Furthermore, BXA provided us with the following information concerning
       some of its increased outreach activities to other federal agencies regarding deemed exports:

       ˜       Department of Energy. In April 2000, BXA provided speakers and training material
               on the subject of deemed exports at the Energy Department’s Export Control
               Coordinators Organization conference. This organization is the coordinating body for
               those who deal with export controls at the various Energy laboratories. Furthermore,
               as a result of a recent administrative settlement with Energy’s National Laboratories
               related to alleged violations of the EAR, BXA is currently hosting officials from Energy
               units for short-term details. During their stay in BXA, the Energy personnel gain
               comprehensive insight into BXA’s priorities with respect to licensing and enforcement
               concerns. Furthermore, in March 2001, OEE hosted an Export Control Seminar for
               Energy personnel at the Los Alamos and Lawrence Livermore National Laboratories.
               In addition to discussing traditional export control concerns, the Director of OEE


                                                   3
U.S. Department of Commerce                                                      Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                         March 2001


               delivered a presentation on compliance with deemed exports to the Energy personnel.
               Since March 2000, OEE special agents have also participated in Project Outreach
               visits and BXA Export Seminars at Energy facilities, including the National Renewable
               Energy Laboratory, the Thomas Jefferson National Accelerator Laboratory, and the
               Oak Ridge National Laboratory.

       ˜       Department of Defense. In October 2000, OEE made a presentation at the Defense
               Logistics Agency’s annual agent training in Battle Creek, Michigan, during which
               deemed exports and traditional export control matters were discussed. OEE is also
               involved in interagency working groups in Milwaukee and Detroit that focus on, among
               other things, deemed exports.

       ˜       National Aeronautics and Space Administration. According to OEE, several of
               National Aeronautics and Space Administration’s (NASA) operating units throughout
               the United States have been visited by OEE special agents in the last three years.
               Specifically, OEE reported that it has visited NASA’s Dryden Flight Research Center,
               Johnson Space Center, Langley Research Center, and Jet Propulsion Laboratory.
               According to OEE, the visits focused primarily on the deemed export of technology
               controlled under the EAR to visiting foreign scientists. OEE special agents have also
               taken part in annual NASA training at its Ames Research Center.

4.     Clarify the term “fundamental research” in the deemed export regulations to leave
       less room for interpretation and confusion on the part of the scientific community.

       Status: Open. While BXA generally concurred with this recommendation in its response to
       our draft March 2000 report, in its June 2000 action plan, BXA stated that narrowing the
       definition of fundamental research would not only impair the relationship between industry and
       the academic community but also hinder new technology development. BXA’s action plan also
       stated that any efforts to clarify this term in the regulations would involve a lengthy process so,
       as an interim measure, BXA tried to clarify this term in its “Questions and Answers” page
       posted on its deemed exports web site established in March 2000. While we believe the
       deemed export web site is a valuable tool for exporters, the explanation provided for
       fundamental research is essentially a restatement of how the EAR defines this term. As such,
       we still maintain that U.S. entities could misuse this exemption by broadly defining fundamental
       research in order not to comply with deemed export controls. Therefore, we do not believe
       that BXA’s actions fully meet the intent of our recommendation.




                                                    4
U.S. Department of Commerce                                                      Final Report IPE-14246-1
Office of Inspector General                  ATTACHMENT                                        March 2001


5.     Work with the National Security Council to determine what is the intent of the deemed
       export control policy and to ensure that the implementing regulations are clear in order
       to lessen the threat of foreign nationals obtaining proscribed sensitive U.S. technology
       inappropriately.

       Status: Open. BXA has taken no action on this recommendation since publication of our
       March 2000 report. On March 14, 2000, in response to our draft report and just prior to
       issuance of the final report, the Assistant Secretary for Export Administration sent a letter to the
       Special Assistant to the President and Senior Director for Nonproliferation and Export Controls
       at the National Security Council requesting that it convene a working group of representatives
       from the Departments of Commerce, Defense, Energy, Justice, and State, and the Office of
       Management and Budget to review U.S. policy regarding deemed export technology transfers.
       However, BXA has not followed up with the National Security Council to determine the status
       of its request. As such, BXA’s limited action on this matter does not meet the intent of our
       recommendation.

6.     Track the number of visa application cables reviewed by the Director of OEA’s Export
       License Review and Compliance Division, as well as those that are distributed to the
       analysts for an in-depth review.

       Status: Closed. BXA estimates that the Director of the Office of Enforcement Analysis’s
       (OEA) Export License Review and Compliance Division reviews between 15,000 and 20,000
       visa application cables annually. A count of the visa applications that the Director believes need
       further review by OEA analysts are recorded on an electronic log, which is updated on a daily
       or weekly basis, as needed. BXA’s actions meet the intent of our recommendation.

7.     For the Visa Application Review Program, assess whether OEA should continue to
       review the current level of visa application cables.

       Status: Closed. According to BXA’s estimates, the Director of OEA’s Export License
       Review and Compliance Division reviewed between 15,000 and 20,000 of the 47,000 visa
       application cables received from the Department’s Telecommunications Center in fiscal year
       1999. According to BXA managers, they reexamined the cable profile for visa application
       cables to determine whether they could reduce the number of cables reviewed. That review
       determined that both the number and type of cables being reviewed by OEA is appropriate
       given current resource levels. Therefore, BXA believes there is no need to decrease the
       number of visa application cables that it reviews annually. BXA’s actions meet the intent of our
       recommendation.



                                                    5
U.S. Department of Commerce                                                        Final Report IPE-14246-1
Office of Inspector General                  ATTACHMENT                                          March 2001


8.     Work with the State Department to have a worldwide cable issued to reiterate the
       need for complete information in the visa application cables, including specific
       information for all stops on a visa applicant’s proposed trip to the United States.

       Status: Open. OEA sent a letter to the State Department in July 2000, requesting that a
       worldwide cable be issued reiterating the need for complete information in the visa application
       cables, including specific information for all stops on a visa applicant’s proposed trip to the
       United States. While the Director of OEA’s Export License Review and Compliance Division
       is not sure whether such a cable was ever issued, she has seen some improvement in the visa
       application cables. Specifically, all stops of the applicant in the United States are generally
       being provided in the visa application cables now. BXA’s actions partially meet the intent of
       our recommendation. However, according to the Export License Review and Compliance
       Division, there is still room for improvement in the information provided about each stop listed
       in the visa application cables, such as what individuals, companies, or institutions will be visited.

       Therefore, we request that BXA again contact State to put out better guidance on what
       information is needed in the visa application cables.

9.     Supplement the Visa Application Review Program training materials with additional
       reference information, to include checklists for the review process that are customized
       to the country of the visitor and type of place (company or government facility) to be
       visited in the United States.

       Status: Closed. The Director of the Export License Review and Compliance Division
       created a checklist that identifies which resources are to be checked by the analysts, based on
       the country of the visitor and the type of place to be visited in the United States. This checklist
       was disseminated to OEA’s analysts in July 2000. In addition, training and informational
       materials were subjected to a review to ensure their continued applicability and usefulness.
       Finally, the Director meets regularly with her staff to ensure that all appropriate resources are
       being consulted during the review of visa application cables. BXA’s actions meet the intent of
       our recommendation.

10.    Change the OEA referral queue in Enforce to permit statistical queries and electronic
       notification to the responsible agent of a visa referral being made involving an existing
       case.

       Status: Open. Although BXA stated that it would implement this recommendation by
       September 2000, no action has been taken. According to BXA managers, all information
       technology efforts are being directed to developing the replacement program for the Export
       Control Automated Support System. Improvements to the old program, including the Enforce

                                                     6
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                        March 2001


       module, are being given a low priority and are effectively not being done. BXA has not met the
       intent of our recommendation.

11.    Designate a point of contact in OEE Intel for receipt and review of all visa referrals
       and have this point of contact interface on a regular basis with an OEA representative
       to ensure that visa cases are prepared, reviewed, and referred to the field offices in a
       timely manner. Assess the effectiveness of this new procedure as part of the periodic
       assessment of the overall Visa Application Review Program.

       Status: Closed. On May 8, 2000, the Director of OEE Intel was designated as the point of
       contact in OEE for the receipt and review of all visa referrals. In addition, a change was made
       to the Enforce database so that incoming visa referrals from OEA now appear in the OEE Intel
       Director’s “tickler” file, which enhances their visibility and enables the director to review and
       refer them to the field offices more quickly. Both the Director of OEA’s Export License
       Review and Compliance Division and the Director of OEE Intel have seen a vast improvement
       in the timeliness of visa application referrals being made to the OEE field offices. BXA has also
       agreed to review the new procedure as part of the periodic assessment of the overall Visa
       Application Review Program (see recommendation 15 below). BXA’s actions meet the intent
       of our recommendation.

12.    Institute a standard procedure for instances when OEE field offices uncover potential
       visa fraud that ensures that all such cases are referred to the appropriate office in the
       State Department in a timely manner.

       Status: Closed. On May 12, 2000, OEE sent out procedural guidance to its field offices
       regarding reporting instances of possible visa fraud to the State Department. Under the new
       procedures, all instances of possible visa fraud identified by OEE field agents will be forwarded
       directly to OEA, with an informational copy being provided to OEE Intel at headquarters.
       Upon receipt of any referrals of possible visa fraud, OEA immediately sends the information to
       the appropriate office in the State Department for action. BXA’s actions meet the intent of our
       recommendation.

13.    Develop procedures within OEA to ensure that visa fraud referrals are made to State
       within the appropriate 10- or 15-working day suspense period.

       Status: Closed. On May 12, 2000, OEA sent guidance to the analysts who review the visa
       application cables instructing them that if, during their review of a visa application cable, they
       discover apparent or possible visa fraud, they are to report the information to the State
       Department immediately (via fax) and prior to further review or referral elsewhere. According
       to the Director of OEA’s Export License Review and Compliance Division, no referrals for visa

                                                   7
U.S. Department of Commerce                                                              Final Report IPE-14246-1
Office of Inspector General                      ATTACHMENT                                            March 2001


       fraud have been made since we made this recommendation. BXA’s actions meet the intent of
       our recommendation.

14.    Stop making visa application referrals to State involving an entity on the Entity List.

       Status: Closed. Effective April 1, 2000, OEA stopped making visa application referrals to
       the State Department for entities listed on BXA’s Entity List.9 Such referrals are now only
       made to OEE for appropriate action. BXA’s actions meet the intent of our recommendation.

15.    Assess the Visa Application Review Program periodically, after the refinements we
       are recommending and others have been implemented, to determine whether the
       resources dedicated to the program justify the results. To that end, BXA should
       develop performance measures to help in determining the program’s success.

       Status: Open. In its action plan, BXA agreed that it would assess the Visa Application
       Review Program once all of our recommendations had been implemented and would continue
       to do so periodically thereafter. However, in recent discussions with OEA managers, it is clear
       that such an assessment has not been, and likely will not be, performed. BXA does not feel
       that it is necessary to develop external performance measures for the program because there is
       ongoing and regular feedback obtained from OEE on the disposition of investigative referrals
       stemming from the program. According to OEA and OEE managers, this feedback shows that
       the program has led to several fruitful investigations. However, because these investigations can
       take many years to reach a conclusion, such as an indictment being made or a monetary fine
       being levied, it is difficult to quantify the program’s success. BXA believes that for this reason
       its internal measures are sufficient. However, the only internal performance measure that OEA
       tracks for the Visa Application Program is the number of investigative referrals made to OEE,
       which numbered 274 in fiscal year 2000. We are not convinced that the number of referrals to
       OEE is a good measure of whether the resources dedicated to the program justify the results.
       The outcome of these referrals is much more important, in our opinion. BXA’s actions do not
       meet the intent of our recommendation.




       9
        A published listing of foreign end users involved in proliferation activities.

                                                         8
U.S. Department of Commerce                                                    Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                       March 2001


16.    Work with the State Department and other interested agencies to formalize the review
       of visa applications under the Visas Mantis program in a memorandum of
       understanding. In addition, encourage the State Department to establish criteria for
       visa denials and develop a process for feedback so that the participating agencies are
       kept apprised of the results of their referrals.

       Status: Closed. The State Department formalized the review of visa applications under the
       Visas Mantis program in an August 9, 2000, memorandum of understanding, which does
       contain criteria for visa denials. However, State has not developed a process for feedback to
       keep the participating agencies apprised of the results of their referrals. However, according to
       the Director of OEA’s Export License Review and Compliance Division, since our report was
       issued, communication between State and BXA has improved significantly. In addition,
       meetings between BXA, State, and the other participating agencies are being held more
       frequently. However, BXA would still like to obtain formal feedback on referrals it makes to
       State, and it has requested such feedback. State has not responded to BXA’s request, and it
       may be because BXA has made just a few visa application referrals to State in the past year.
       Thus, creating a system to provide feedback on the disposition of those few referrals may not
       be a high priority for State at this time. State OIG, which made a similar recommendation in its
       2000 report, will follow up to determine why State has not implemented the feedback portion
       of this recommendation. BXA’s actions meet the intent of our recommendation.

17.    Ensure that all future CFIUS filings, especially those involving countries of concern,
       are forwarded to both Export Enforcement and Export Administration’s appropriate
       licensing office for review. In addition, make certain that any referral and
       recommendations are documented in the CFIUS case file.

       Status: Open. Of the 76 CFIUS cases filed with the U.S. government since March 2000,
       only 4 were from countries of concern. Although BXA reported to us that both Export
       Enforcement and the appropriate Export Administration licensing division review CFIUS filings
       from countries of concern, BXA could only provide us with documentation supporting this fact
       for two of the four cases it has reviewed since March 2000. Thus, we would again encourage
       BXA to ensure that all future filings, especially those involving countries of concern, are
       reviewed by both Export Enforcement and Export Administration’s appropriate licensing office
       and that the referral notations and subsequent recommendations are recorded in the case file.
       BXA’s actions do not fully meet the intent of our recommendation.




                                                   9
U.S. Department of Commerce                                                             Final Report IPE-14246-1
Office of Inspector General                      ATTACHMENT                                           March 2001


Recommendation for the National Institute of Standards and Technology

1.      Ensure that NIST’s CRADA agreements or any other agreements NIST may have
        with the private sector include a statement specifying its private sector partners’ need
        to comply with export control laws, such as obtaining a deemed export license for their
        foreign national employees, if applicable, before working on NIST research projects.

        Status: Closed. The terms and conditions of the standard NIST CRADA10 document were
        modified to include a clause on the export of technical data. According to NIST, all new
        CRADAs executed by NIST after April 7, 2000, include the new clause. Existing CRADAs
        that are extended or amended for any reason will also include the clause as part of the
        extension or amendment. In addition, NIST is currently examining its other agreements with the
        private sector to determine on a case-by-case basis whether those agreements should also
        contain an export control clause. As a part of this exercise, we would encourage NIST to
        examine its existing CRADAs that may not come up for an extension or amendment to
        determine if they also need to be amended to include the export clause. NIST’s actions meet
        the intent of our recommendation.

Recommendation for the National Institute of Standards and Technology and
the National Oceanic and Atmospheric Administration

1.      Establish procedures to ensure that technical information or know-how released to
        foreign nationals is in compliance with federal export licensing requirements. At a
        minimum:

        (a)      Develop guidance regarding when a visit, assignment, or collaborative
                 relationship of a foreign national to a NIST or NOAA facility requires a
                 deemed export license.

        (b)      Clearly state policies, procedures, and responsibilities of NIST and NOAA
                 hosts for determining whether a deemed export license is required.




        10
           A cooperative research and development agreement, or CRADA, is one means that the U.S. government
uses for technology transfer to the private sector. CRADAs are used when research being conducted jointly by
federal laboratories and nonfederal parties is more likely to result in the development of an invention and would
generally increase the possibility that deemed export licenses could be required.

                                                        10
U.S. Department of Commerce                                                     Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                        March 2001


       (c)     Establish a focal point at each appropriate NIST and NOAA research facility to
               determine whether a deemed export license is required when a foreign national
               visits the facility.

       (d)     Develop an export control program document containing procedures for
               determining whether technology or commodities at NIST and NOAA facilities
               can be exported to foreign countries, with or without a license.

       (e)     Mandate training requirements for personnel at NIST and NOAA facilities on
               the deemed export licensing requirements.

       NIST

       Status: Closed. In response to our recommendations, NIST established an Export Control
       Working Group, which includes officials from the major NIST management groups and
       divisions. The primary mission of the group is to (1) review its current export control policies
       and procedures and propose improvements where needed, (2) draft written policy guidelines
       on export controls for NIST personnel, and (3) draft training materials on export controls for
       NIST personnel. On March 24, 2000, the working group had a kick-off meeting, which
       included a presentation by BXA officials.

       In May 2000, pending the adoption of formal written procedures, the offices of NIST Counsel
       and International and Academic Affairs instituted short-term procedures for processing foreign
       guest workers working at NIST. All such workers coming from organizations on the BXA
       Entity List or from embargoed countries, regardless of which project they will be participating in
       at NIST, were to be first vetted through the Office of NIST Counsel and formal applications for
       deemed export licenses are to be made. According to NIST, it has filed two deemed export
       license applications with BXA since March 2000. Both applications were returned without
       action because no license was required.

       Subsequently, a June 2000 memorandum from the Director of the NIST Program Office was
       sent to all division chiefs informing them of U.S. export control laws and regulations governing
       the sharing of information with foreign nationals. The memorandum also requested that each
       chief provide the name, country of origin, and a detailed description of the research being
       conducted by each guest worker currently visiting NIST (as well as in the future) who comes
       from one of the countries listed on the restricted countries list contained in the International



                                                  11
U.S. Department of Commerce                                                                Final Report IPE-14246-1
Office of Inspector General                        ATTACHMENT                                            March 2001


         Traffic in Arms Regulations (ITAR).11 According to the memorandum, this information is to be
         forwarded to the Office of International and Academic Affairs. Finally, the memorandum
         designates the Office of NIST Counsel as the focal point for export control guidance, including
         questions and clearances.

         In August 2000, the Director of NIST sent a memorandum to all NIST employees on the
         “Do’s and Don’ts When Dealing With Intellectual Property, Proprietary Information and
         Companies.” The memorandum is essentially a list of 10 principles to help NIST employees
         ensure that all their dealings with outside parties are ethical and are in compliance with federal
         law, regulation, and policy. Item 6 on the list warns against the disclosure of technical
         information to non-U.S. citizens and briefly explains the concept of deemed exports.

         Finally, since issuance of our March 2000 report, NIST has held three training sessions,
         primarily geared to NIST personnel involved in the Advanced Technology Program’s
         intramural activities, that included a discussion of export control-related issues, including
         deemed exports. Furthermore, NIST is planning another series of training courses involving
         general scientific collaborations during the coming year that is also expected to incorporate a
         discussion of export control-related issues. NIST’s actions meet the intent of our
         recommendations.

         NOAA

         Status: Open. In its action plan, NOAA stated that its National Environmental Satellite, Data,
         and Information Service is prepared to work with BXA to improve its policies and procedures
         concerning deemed export controls, as needed. It also noted that NOAA will canvass its other
         line offices to determine whether additional efforts need to be taken to ensure that technical
         information or know-how released to foreign nationals is in compliance with federal export
         licensing requirements. NOAA also pointed out that implementation of any export control
         policies and procedures would be predicated upon clarifications to the EAR by BXA, including
         whether a facility is an “appropriate research facility.” As indicated earlier in recommendation
         3(c), BXA reported to us that it tried to engage NOAA in a discussion on deemed export


         11
           The ITAR list includes BXA embargoed countries. When we questioned NIST as to why it used the
ITAR list as a baseline for its division chiefs to follow, NIST informed us that the original intent of the memorandum
was for NIST to identify research being conducted by foreign guest workers from countries of concern (such as
those from China, India, and Pakistan). However, NIST pointed out that it is aware of BXA’s Entity List and Denied
Persons List as indicated by the fact that it applied for two deemed export license applications for individuals coming
from an entity that appears on BXA’s Entity List. NIST stated that any future instruction on this issue will include
references to not only the ITAR-restricted list, but also BXA’s Entity and Denied Persons Lists.

                                                          12
U.S. Department of Commerce                                                    Final Report IPE-14246-1
Office of Inspector General                 ATTACHMENT                                       March 2001


       controls but NOAA did not respond. Therefore, we would strongly encourage NOAA to
       contact BXA to discuss deemed export regulations and their potential applicability to NOAA.
       NOAA’s actions have not fully met the intent of our recommendations.

Recommendation for the International Trade Administration
and the Bureau of Export Administration

1.     Determine whether ITA or BXA is the appropriate Commerce organization to take the
       lead on CFIUS.

       Status: Closed. BXA and the International Trade Administration agree that the Department’s
       responsibilities for coordinating CFIUS matters should continue to reside in ITA, since neither
       party believes that a transfer of administrative responsibilities would enhance the effectiveness
       of Commerce’s CFIUS review process.

       However, neither agency could provide a justification as to why ITA is the more appropriate
       Commerce organization to take the lead on CFIUS. Regardless, the two bureaus agreed to
       work closely together, as well as with other interested departmental units, to ensure that all
       CFIUS cases are reviewed thoroughly. BXA’s and ITA’s actions meet the intent of our
       recommendation.




                                                  13
